    U.S. Department of the Interior
    Office of Inspector General




                AUDIT REPORT


     FOLLOWUP OF MAINFRAME COMPUTER
         POLICIES AND PROCEDURES,
      ADMINISTRATIVE SERVICE CENTER,
          BUREAU OF RECLAMATION

                  REPORT NO. 98-I-623
                      AUGUST 1998




i
                                                                       A-ILBOR-00 l-97


              United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20240
                                                               AUG 20 1998

                                 AUDIT REPORT
Memorandum

To:        Commissioner, Bureau of Reclamation

From:      Robert J. Williams
           Assistant Inspector

Subject:   Audit Report on Follow-up of Mainframe Computer Policies and Procedures,
           Administrative Service Center, Bureau of Reclamation (NO. 98-I-623)

                                 INTRODUCTION

This report presents the results of our followup audit of recommendations contained in our
March 1997 audit report “Mainframe Computer Policies and Procedures, Administrative
Service Center, Bureau of Reclamation” (No. 97-I-683). We performed this audit in support
of audits of the annual financial statements of the Bureau of Reclamation and the Service
Center’s clients. Annual financial statements are required by the Chief Financial Officers
Act. The objective of this audit was to determine whether (1) the Service Center had
satisfactorily implemented the recommendations made in our prior audit report and whether
any new recommendations were warranted and (2) the Service Center’s general controls were
effective over computer center management and operations, software change management,
and mainframe computer operating system software.

BACKGROUND

The Bureau of Reclamation’s Administrative Service Center in Denver, Colorado, is one of
two Administrative Service Centers within the Department of the Interior. The Service
Center’s mission “is to improve economy and efficiency in Government through the delivery
of standard. automated administrative systems.” Specifically, the Service Center provides
(1) consolidated payroll and personnel services for about 97,000 employees in the
Department of the Interior and eight other Federal agencies and (2) Government accounting,
integrated budgeting, and reporting services through the Federal Financial System (FFS) to
three Departmental and five other Federal agencies. At the time of our audit. payroll and
personnel services were provided through the Payroll/Personnel System (PAYPERS) and
the Federal Personnel Payroll System (FPPS) that was in the latter stages of development.
The implementation of FPPS, which is to replace PAY/PER& began in September 1997
with the conversion of three Departmental agencies from PAY/PERS. The remaining
Departmental and non-Departmental agencies are to be converted to FPPS by December 30,
1998. In addition, a new client, the Social Security Administration, was added in March
1998, which increased the number of payroll accounts by about 65,000.

The Service Center provides its services on a cost-reimbursable basis, and this
reimbursement faction is administered through the Bureau’s Working Capital Fund. The
Service Center is organized into seven divisions that “provide data center, application,
system, and operational support to the organization and clients” as follows:

        - The ADP Services Division is responsible for (1) planning, developing, and
operating the Service Center’s computer center functions and (2) operating and maintaining
computers, system software, and data communication networks. To assist the Division in
carrying out its functions, the Service Center has contracted with Tri-Cor Industries, Inc. The
Division provides data processing support for the Departmental standardized administrative
sensitive systems.’ To support these systems, the computer center operates an IBM
mainframe computer using the “OS/390” operating system to manage the processing work
load. The access control security software installed on the mainframe computer is the
Resource Access Control Facility (RACF),’ which controls users’ and computer programs’
access to the mainframe computer resources. Additionally, other system software, such as
database management, telecommunications, and specialized vendor software, reside on the
mainframe computer and are used to support the sensitive systems. Data center operations
provide users with computer and communications equipment and infrastructure, systems
software, and operational support. The Division manages data center operations through
scheduling activities, planning for contingencies and capacity, and providing user support.
The Division also manages the information resources security program.

         - The FPPS Division is responsible for managing the development, implementation,
and operation of the FPPS application. These responsibilities include controlling software
changes; providing technical assistance to users; and managing tests of the application,
converting data, and implementing the FPPS application. To assist the Division in carrying
out its functions, the Service Center has contracted with the Computer Sciences Corporation.

      - The Application Management Office directs the program activities of the
Departmental administrative applications assigned to the Service Center.

       - The PAY/PERS Division operates and maintains PAY/PERS. However, when all
agencies have been converted to FPPS, the PAY/PERS Division will no longer exist.


‘According to the National Institute of Standards and Technology, sensitive systems are defined as “systems
that contain any information, the loss, misuse, or unauthorized access to or modification of which could
adversely affect the national interest or the conduct of Federal programs, or the privacy to which individuals
are entitled under the Privacy Act, but which has not been specifically authorized under criteria established by
an Executive Order or an Act of Congress to be kept secret in the interest of national defense or foreign
policy.”

*RACF is an IBM-licensed product that provides access control by identifying and verifying users to the
system, authorizing access to protected resources, logging detected accesses to protected resources, and logging
detected unauthorized attempts to enter the system.

                                                        2
        - The Payroll Operations Division plans, develops, executes, and manages the
interagency payroll program delivered by the Service Center and performs payroll
administration and services for all payroll clients.

        - The Financial Systems Division provides functional and technical support to
clients using FFS and related financial applications.

        - The Management Services Division provides Service Center administrative
support.

SCOPE OF AUDIT

The scope of our followup audit included an evaluation of the actions taken by Service
Center management to implement the 24 recommendations made in our March 1997 audit
report and a review of the general controls in place during fiscal year 1997. To accomplish
our objective, we interviewed Service Center and contractor personnel, reviewed systems
documentation, observed and became familiar with computer center operations, analyzed
system security, reviewed system and application software maintenance procedures, and
reviewed and tested implementation of the prior audit recommendations. Because our review
was limited to evaluating the adequacy of internal controls at the Service Center, we did not
test the effectiveness of the internal controls at the various agencies and clients supported by
the Service Center.

Our audit was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances.

As part of our audit, we evaluated the Service Center’s general controls over its mainframe
computer and application systems that could adversely affect the data processing
environment. The control weaknesses that we identified are summarized in the Results of
Audit section and discussed further in Appendix 1 of this report. If implemented, our
recommendations should improve the general controls in the areas cited. Because of inherent
limitations in any system of internal controls, losses, noncompliance, or misstatements may
occur and not be detected. We also caution that projecting our evaluations to future periods
is subject to the risk that controls or the degree of compliance with the controls may
diminish.

PRIOR AUDIT COVERAGE

During the past 5 years, the General Accounting Office has not issued any reports related to
the scope of this audit. However, the Office of Inspector General has issued two related
reports as follows:
    - The March 1994 audit report “Compliance With the Computer Security Act of 1987,
Denver Administrative Service Center, Bureau of Reclamation” (No.94-I-3 57) stated that the
Service Center generally complied with the requirements of the Computer Security Act of
1987 but that improvements were needed in the areas of security and operations. Since the
Service Center was addressing all of the deficiencies identified, the report contained no
recommendations.

     - The March 1997 audit report “Mainframe Computer Policies and Procedures,
Administrative Service Center, Bureau of Reclamation” (No.97-I-683) stated that
deficiencies identified in our March 1994 report relating to performing a risk analysis of the
Service Center’s local area networks and separating duties by using RACF security software
still existed. This report contained 24 recommendations for improving management and
internal controls at the Service Center. We reviewed actions taken by Service Center
management to implement these recommendations as part of our current audit, the results of
which are summarized in the Results of Audit section and discussed in Appendix 2 of this
report.

                              RESULTS OF AUDIT

Regarding the prior report’s recommendations, we found that the Bureau of Reclamation’s
Administrative Service Center management had satisfactorily implemented 21 of the 24
recommendations (see Appendix 2). Of the three remaining recommendations, one
recommendation (No. D.3) was scheduled for completion by September 30, 1998, and we
considered the planned actions adequate to correct the deficiencies identified. We considered
the remaining two recommendations (Nos. G.2 and J.l) partially implemented because
actions had not been completed to fully correct the previously identified deficiencies. The
actions taken to implement the 2 1 recommendations have improved the controls in the areas
of local area network protection; application access; mainframe system physical and logical
security; and contingency planning, backup, and disaster recovery.

Regarding the general controls, we believe that overall, the general controls were operating
with no material weaknesses. However, we found general control weaknesses in the areas
of computer center management and operations, software change management, and
mainframe computer operating system software that were present during fiscal year 1997.
Office of Management and Budget Circular A-130, “Management of Federal Information
Resources,” which defines minimal sets of controls for managing Federal information
resources, and National Institute of Standards and Technology publications require Federal
agencies to establish and implement computer security and management and internal controls
to improve the protection of sensitive information in the computer systems of executive
branch agencies. Additionally, the Congress has enacted laws, such as the Privacy Act of
1974 and the Computer Security Act of 1987, to improve the security and privacy of
sensitive information in computer systems by requiring executive branch agencies to ensure
that the level of computer security and controls is adequate. Also, the Departmental Manual
outlines (1) the requirements related to security clearance programs, suitability, and types of
security investigations and (2) the process for determining position sensitivity. However,


                                              4
Service Center management did not ensure that controls were implemented and were
operating effectively and in compliance with established criteria. Specifically, we found that
general control practices and processes were not complied with, the appropriate security
levels were not assigned to automated data processing (ADP)-related positions, some
mainframe computer functions were not operated efficiently, software change management
controls were not complied with, and mainframe computer operating system software tools
and settings had not been implemented to ensure system and data integrity. As a result, there
was an increased risk of unauthorized access to, modification of, and disclosure of client-
sensitive data; inefficient Service Center operations; and loss of system and data integrity.

Overall, we identified 6 weaknesses and made 14 recommendations for improving the
general controls at the Service Center. The weaknesses in the areas of computer center
management and operations, software change management controls, and mainframe
computer operating system software are discussed in the following paragraphs, and details
of the weaknesses and our respective recommendations to correct these weaknesses are in
Appendix 1.

Computer Center Management and Operations

We found that Government and contractor employees who filled ADP-related sensitive and
critical positions did not have proper background clearances. Without information on the
security-related background of personnel assigned to sensitive and critical positions, there
was an increased risk that sensitive systems could be impaired or compromised. In addition,
Service Center operations could be improved if some mainframe computer functions, such
as moving changed software from the test environment to the production environment
process and scheduling computer production, were centralized, and a standardized software
change control tool was used. When mainframe computer functions are decentralized and
not standardized, there is an increased risk of inefficient operations and unnecessary costs.
We made three recommendations to address these weaknesses.

Software Change Management Controls

We found control weaknesses in the area of managing software changes made to the FPPS
application and to the mainframe computer operating system. Because of the weak controls,
there was an increased risk that unauthorized changes could be made to the sensitive FPPS
application and to the critical operating system, which could affect application and system
integrity. We made seven recommendations to address these weaknesses.

Mainframe Computer Operating System Software

We found that the Service Center had not implemented the available operating system
software tools which would improve (1) the effectiveness of access controls to the mainframe
computer resources and (2) mainframe computer system processing and data integrity. As
a result, the risk was increased that access controls could be bypassed and unauthorized


                                              5
activities would not be detected. We made four recommendations to address the weaknesses
in this area.

Bureau of Reclamation Response and Office of Inspector General Reply

In the June 17, 1998, response (Appendix 3) to the draft report from the Commissioner,
Bureau of Reclamation, the Bureau concurred with all 14 of the new recommendations.
Based on the response, we consider Recommendations C. 1 and C.2 resolved and
implemented and Recommendations A. 1, A.2, B. 1, C.3, D. 1, D.2, D.3, D.4, E. 1, E.2, F. 1,
and F.2 resolved but not implemented. Accordingly, the unimplemented recommendations
will be referred to the Assistant Secretary for Policy, Management and Budget for tracking
of implementation (see Appendix 4).

In its response, the Bureau said that “the report language regarding the FPPS system did not
adequately consider that FPPS was under development during the time of the audit.” We
disagree. We clearly identified in Finding C that the weaknesses occurred during the latter
stages of development and the early stages of implementation. However, we have added
wording (page 1) to further clarify that the FPPS was in the latter stages of development
during the period of our review.

Regarding our March 1997 report, we consider 2 1 recommendations resolved and
implemented and the remaining 3 recommendations (Nos. D.3, G.2, and 5.1) partially
implemented. Accordingly, updated information on the status of the three prior
recommendations will be forwarded to the Assistant Secretary for Policy, Management and
Budget (see Appendix 5).

Since the recommendations contained in this report are considered resolved, no further
response to the Office of Inspector General is required (see Appendix 4).

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Bureau personnel in the conduct of our audit.
                                                                                      APPENDIX 1
                                                                                       Page 1 of 11




DETAILS OF WEAKNESSES AND RECOMMENDATIONS

COMPUTER CENTER MANAGEMENT AND OPERATIONS


A. Background Clearances

Condition: In our prior report, we recommended that Service Center management require
           all contractor employees to have proper background clearances. However,
           during our current audit, we found that contractor personnel at the ADP
           Services Division had received background clearances but that not all
           contractor personnel at the FPPS and Financial Systems Divisions had received
           background clearances. Additionally, Service Center Federal personnel
           involved in designing, developing, operating, or maintaining sensitive
           automated systems did not have background checks and security clearances
           commensurate with their job responsibilities and the sensitivity of the
           information accessed. Specifically, 154 of the 189 Service Center employees
           who performed these ADP-related duties did not have the appropriate ADP
           background clearances.

Criteria:   Office of Management and Budget Circular A- 130, Appendix III, “Security of
            Federal Automated Information Resources,” requires agencies to establish and
            manage security policies, standards, and procedures that include requirements
            for screening individuals participating in the design, development, operation,
            or maintenance of sensitive applications or those having access to sensitive
            data. In addition, the Departmental Manual (441 DM 4.6) requires position
            sensitivity levels of “non-critical sensitive” or “critical sensitive” and associated
            security clearances for ADP-related positions for which employees are required
            to design, test, operate, and maintain sensitive computer systems. Security
            clearances are also required of employees who have access to or process
            sensitive data requiring protection under the Privacy Act of 1974. Further, the
            Departmental Manual (441 DM 5.15) requires that all consultants or
            contractors performing ADP-related sensitive and critical duties have
            background investigations to determine position suitability and to receive a
            security clearance.

Cause:      Service Center management had not uniformly developed and implemented,
            across all Service Center Divisions, personnel security policies requiring
            contractor personnel who perform ADP-related sensitive and critical duties to

                                              7
                                                                                APPENDIX 1
                                                                                 Page 2 of 11

COMPUTER CENTER MANAGEMENT AND OPERATIONS
              be screened for position suitability. Additionally, Service Center management
              did not ensure that the level of position sensitivity for ADP-related positions
              was assigned at the level commensurate with the risk and sensitivity of the data
              accessed and processed and that background checks were performed on
              employees who filled these positions.

Effect:       Without proper personnel background investigations, managers had limited
              knowledge of the suitability of their employees and contractors, from a security
              standpoint, for their respective jobs. Without this assurance, there was an
              increased risk that the Service Center’s sensitive systems could be impaired or
              compromised by personnel.

Recommendations

We recommend that the Director, Administrative Service Center:

    1. Develop and implement policies and procedures which require contractor employees
who fill ADP-related sensitive or critical positions to have documented suitability screening
and proper background investigations and appropriate security clearances.

    2. Evaluate the position sensitivity of ADP-related positions, assign position sensitivity
levels in accordance with the Departmental Manual, and ensure that those employees
working on sensitive systems have the proper background investigations and security
clearances before they are assigned to the positions.




                                              8
                                                                              APPENDIX 1
                                                                               Page 3 of 11

COMPUTER CENTER MANAGEMENT AND OPERATIONS

B. Operating Efficiencies

Condition: At the Service Center, each division controlled the process of moving changed
           software from the test to the production environment, different software tools
           were used to control the movement of the changed software, and internal and
           external clients controlled their mainframe computer production scheduling.

Criteria:    Office of Management and Budget Circular A-l 30 states that management
             should oversee its processes to maximize return on investment and minimize
             financial and operational risk. Further, the Circular requires that financial
             management systems conform to the requirements of Office of Management
             and Budget Circular A- 127, “Financial Management Systems.” Circular A- 127
             requires that agency financial management systems process financial events
             effectively and efficiently.

Cause:       Service Center management did not ensure that its processes were operating
             efficiently because of preferences of internal and external clients and because
             management had not developed and implemented consistent standards for
             controlling operational processes.

Effect:      There was an increased risk that changed software would negatively impact the
             mainframe computer operating system; costs of maintaining different software
             tools would increase Service Center operating costs, which would be passed on
             to clients; and mainframe computer usage could be reduced. Additionally,
             without centralized control of production scheduling, there was an increased
             risk that critical processing jobs would not receive the required priority.

Recommendation:

We recommend that the Director, Administrative Service Center, in coordination with the
Service Center’s internal and external clients, evaluate the feasibility of centralizing the
process of moving changed software from the test environment to the production
environment, using standardized software tools to control the software change process, and
centralizing mainframe computer production scheduling.
                                                                                         APPENDIX 1
                                                                                          Page4ofll

COMPUTER CENTER MANAGEMENT AND OPERATIONS

C. Application Software Change Management Controls

Condition: Software changes made to the FPPS during the latter stages of development and
           the early stages of implementation were not approved, reviewed, or evaluated
           adequately before changed software was installed for use in production;
           documentation was not adequate to monitor changes made to the software; and
           available library control software’ was not implemented to ensure consistency
           and completeness throughout the FPPS application.

Criteria:      Federal Information Processing Standards Publication 106, “Guideline on
               Software Maintenance,” provides guidelines for managing software
               maintenance. Publication 106 states that all software changes should be
               carefully evaluated and formally reviewed prior to installing the changed
               software. The publication further states, “In order to monitor maintenance
               effectively, all activities must be documented. . . . The key to successful
               documentation is that not only must the necessary information be recorded, it
               must be easily and quickly retrievable by the maintainer.” In addition, FPPS
               Division policies and procedures require that all changes to the FPPS
               application be thoroughly documented, be accepted by all involved parties, and
               pass a quality assurance review.

Cause:         FPPS Division management did not ensure that Division personnel followed
               software change management practices for making software changes to the
               FPPS application because of the time constraints to implement FPPS and
               because FPPS was encountering problems and was considered by Division
               personnel to be unstable. In addition, we found that FPPS Division
               management did not hold its personnel accountable for complying with
               Division policies and procedures when they made changes to the FPPS
               application. Further, FPPS Division management said that they did not
               implement the available library control software, which would ensure adequate
               documentation of the FPPS application, because at that time, the vendor library
               control software was not working correctly.

Effect:        There was an increased risk that the changes made to the FPPS application
               would not perform according to specifications, which could adversely affect
               user satisfaction and could adversely impact other applications interfacing with
               the FPPS application or the mainframe operating system.



‘Library control software is a system for keeping track of changes to and versions of software programs,
documenting components to build executable programs, and preventing unauthorized access to program files.

                                                   10
                                                                             APPENDIX 1
                                                                              Page 5 of 11

COMPUTER CENTER MANAGEMENT AND OPERATIONS

Recommendations:

We recommend that the Director, Administrative Service Center:

   1. Require that software changes be adequately reviewed and approved before the
changes are implemented.

    2. Implement procedures to ensure that all software changes to the FPPS application are
properly documented.

   3. Implement the available library control software when corrected to ensure adequate
documentation of the FPPS application.




                                            11
                                                                               APPENDIX 1
                                                                                Page 6 of 11

COMPUTER CENTER MANAGEMENT AND OPERATIONS

D. Operating System Software Change Management

Condition: Change controls over the mainframe computer operating system software were
           not adequate. The ADP Services Division change control procedures did not
           address adequate separation of duties between the development, test, and
           installation functions. Thus, one individual could perform all of these critical
           functions. In addition, the change control procedures did not ensure that all
           changes were properly approved by Division management. While the change
           management procedures required approval of all software changes, changes
           were made without documented evidence of approval.

Criteria:    Appendix III of Office of Management and Budget Circular A-l 30 states that
             one of the minimum controls required in a general support system is personnel
             controls. One such control is separation of duties, which is “the practice of
             dividing the steps in a critical function among different individuals.” Also,
             Federal Information Processing Standards Publication 106 states that “to be
             effective, the policy should be consistently applied and must be supported and
             promulgated by upper management to the extent that it establishes an
             organizational commitment to software maintenance.” In addition, Publication
             106 states that “prior to installation, each change (correction, update, or
             enhancement) to a system should be formally reviewed.” Finally, Division
             system change request procedures require that all change requests be approved
             by the appropriate branch chief.

Cause:      ADP Services Division management did not ensure that appropriate separation
            of duties existed in developing and testing mainframe operating system
            software and parameter changes and in moving operating system software and
            parameter changes into the production environment, although the number of
            employees within the Division may allow for a separation of these duties.
            Additionally, Division management had not implemented controls to ensure
            that the process of making system software changes was in compliance with its
            documented procedures. Further, management had not implemented procedures
            to require periodic reviews of critical datasets and system parameters to identify
            inappropriate changes to the mainframe operating system environment.
            Although Division management had implemented a change control software
            tool that provided a systematic and automated means of controlling the
            movement of software changes, all the capabilities of the software tool were not
            implemented because of other Division priorities.




                                             12
                                                                            APPENDIX 1
                                                                             Page 7 of 11

COMPUTER CENTER MANAGEMENT AND OPERATIONS

Effect:      There was an increased risk that unauthorized, untested, and undocumented
             changes could be made to the mainframe computer operating system software
             and parameters, which would affect system processing and data integrity, and
             that these changes would not be detected or detected in a timely manner.

Recommendations:

We recommend that the Director, Administrative Service Center:

    1. Evaluate current ADP Services Division procedures and determine the feasibility of
implementing controls in the change management process over operating system software
to ensure that adequate separation of duties is addressed and complied with.

    2. Develop procedures and implement controls to ensure that changes to the operating
system parameters are identified, approved by ADP Services Division management, and
documented.

    3. Develop procedures requiring periodic reviews of critical datasets and system
parameters.

    4. Evaluate implementing available capabilities in the current change control software
tool to more effectively control changes to the operating system software.




                                           13
                                                                                              APPENDIX 1
                                                                                               Page 8 of 11

MAINFRAME COMPUTER OPERATING SYSTEM SOFTWARE


E. System Audit Tools

Condition: Service Center management did not use available mainframe computer
           operating system audit tools that would improve integrity over system
           processing and data and that would detect inappropriate actions by authorized
           users. Specifically:

                    - Operating system integrity verification and audit software was not used.
                Such software could assist data center and installation security management in
                identifying and controlling the mainframe computer operating system’s security
                exposures that may result from system setting options; from installing “back
                doors” to the operating system; and from introducing viruses and Trojan horses,
                which can destroy production dependability and circumvent existing security
                measures.

                    - Computer operators and system programmers had the capability to change
                the system initialization process and thus affect system processing. System
                options that would log the results in the SYSLOG* of actions taken by the
                computer operators and system programmers affecting mainframe operating
                system configuration were not implemented. Therefore, an audit trail of the
                system initialization process and changes to the operating system configuration
                could not be produced for periodic review. Based on recommendations made
                by our audit staff during the review, Service Center management implemented
                the logging capabilities within the system; however, procedures had not been
                developed and implemented to require periodic reviews of the logs.

                     - Periodic reviews of critical System Management Facility (SMF)3 logs to
                identify unauthorized changes to data by authorized users and critical events
                affecting system processing were not performed. For example, reviews were
                not performed of record type 7, which records when the system audit trail is
                lost, and record type 90, which records events such as SET TIME, SET DATE,
                and SET SMF, all of which affect system processing and audit trails.



*SY SLOG is an audit trail that logs the results of actions taken by computer operators and system programmers
during system initialization.

3The System Management Facility (SMF) logs record all system activity and serve as an audit trail of system
activity, including identifying users who performed the activity.

                                                      14
                                                                               APPENDIX 1
                                                                                Page 9 of 11

MAINFRAME COMPUTER OPERATING SYSTEM SOFTWARE


Criteria:    Appendix III of Office of Management and Budget Circular A-l 30 requires
             agencies to establish controls to ensure adequate security for all information
             processed, transmitted, or stored in Federal automated information systems. In
             addition, the Circular states that individual accountability is one of the
             personnel controls required in a general support system. The Circular further
             states that an example of one of the controls to ensure individual accountability
             includes reviewing or looking at patterns of users’ behavior, which requires
             periodic reviews of the audit trails. Also, the National Institute of Standards
             and Technology’s “An Introduction to Computer Security: The NIST
             Handbook” states that audit trails are “technical mechanisms” to achieve
             individual accountability.

Cause:       Service Center management did not acquire operating system integrity and
             verification software, did not encourage the use of available system audit trails
             to detect and identify inappropriate actions affecting the system processing and
             data integrity, and did not establish procedures requiring periodic reviews of
             available system logs. Instead, Service Center management relied on its staff
             to make appropriate changes to the system initialization process and on
             authorized users to make only appropriate changes.

Effect:      As a result, there was an increased risk that mainframe computer operating
             system security exposures would not be identified. Additionally, without
             periodic reviews of the system audit trails, there was an increased risk that
             processing problems or unauthorized activities would not be detected or
             detected timely and that the responsible individuals would not be held
             accountable for the inappropriate actions.

Recommendations:

We recommend that the Director, Administrative Service Center:

    1. Evaluate acquiring system verification and auditing software.

    2. Develop and implement procedures to ensure that periodic reviews are performed of
the SYSLOG and critical SMF logs to identify unauthorized or inappropriate activities and
that unauthorized or inappropriate activities are reported to Service Center management.




                                             15
                                                                                                   APPENDIX 1
                                                                                                   Page 10of 11

MAINFRAME COMPUTER OPERATING SYSTEM SOFTWARE


F. Mainframe Operating System Options

Condition: ADP Services Division management did not implement mainframe operating
           system options that would strengthen controls over computer programs which
                                                                               4
           access sensitive operating system functions. We found 13 libraries that were
           able to run in the “Authorized Program Facility (APF)-authorized” state, even
           though the libraries were not required to run in the APF. By running in the
           APF-authorized state, these libraries may be considered part of the main&me
           operating system and thus have access to all of the mainframe resources.

Criteria:        IBM’s publication titled “OS/390 Initialization and Tuning Reference” states
                 that “the parameter LNKAUTH specifies whether all libraries” in the
                 LNKLST* * member? “are to be treated as Authorized Program Facility (APF)-
                 authorized when accessed as part of the concatenation, or whether only those
                 libraries that are named in the APF table are to be treated as APF-authorized?
                 Additionally, the publication addresses managing system security and states
                 that the “authorized program facility (APF) allows your installation to identify
                 system or user programs that can use sensitive system functions.”

Cause:           Division Management implemented a default option (LNKLST) that allowed
                 libraries within the LNKLST* * member to run in the APF-authorized state. An
                 alternative option (APFTAB) is provided which requires only those libraries
                 that are named specifically in the APF table to be able to run in the APF-
                 authorized state. The 13 libraries were automatically added to the LNKLST* *
                 member when the operating system was upgraded in July 1997. Because
                 Division management did not review the members used to define APF-
                 authorized libraries, these 13 libraries remained in the LNKLST** member.



4A library is a collection of programs or data files or a collection of functions (subroutines) that are linked into
the main program when it is compiled. (The Computer Language Company, Inc., Computer Desktop
Encyclopedia, Version 9.4,4th Quarter, 1996.)

‘Concatenation means to link together in a series or chain. (Webster’s Ninth New Collegiate Dictionary,
Merriam-Webster Inc., Springfield, Massachusetts, 1989, p. 27 1.)

6LNIUST** member “defmes the collection of program libraries to be searched, in sequence, for programs
when no specific [library] has been supplied in the job stream.” (Mark S. Hahn, CONSUL Risk Management,
Inc., A Guide to SYSl .PARMLIB, Monograph Series 4, 1 he Information Systems Audit and Control
Foundation, Inc., Rolling Meadows, Illinois, February 1996, p. 38.)

                                                        16
                                                                                 APPENDIX 1
                                                                                 Page 11 of 11

MAINFRAME COMPUTER OPERATING SYSTEM SOFTWARE


              Further, because Division management implemented the LNKLST option,
              these 13 libraries were unnecessarily provided the ability to run in the APF-
              authorized state. Therefore, management did not have assurance that only
              approved libraries had access to sensitive operating system functions. Based
              on recommendations of our audit staff during the review, the libraries were
              removed fi-om the LNKLST** member. However, if the APFTAB option had
              been used, Division personnel would have been required to enter the 13 library
              names into the APF table, thus providing additional assurance that only
              approved libraries would run in the APF-authorized state.

Effect:       By implementing the LNKLST option rather than the APFTAB option, the risk
              increased for unauthorized libraries to run in an authorized state, thus bypassing
              operating system controls, and for system integrity to be lost.

Recommendations:

We recommend that the Director, Administrative Service Center:

    1. Evaluate the feasibility of using the APFTAB option, thus providing additional
assurance that only approved libraries would run in the APF-authorized state.

    2. Perform periodic reviews of all members used to define the APF-authorized libraries
to ensure that only those required to run in the APF-authorized state are given this authority.




                                              17
                                                                               APPENDIX 2
                                                                                 Page 1 of 6


           SUMMARY OF RECOMMENDATIONS AND
          CORRECTIVE ACTIONS FOR AUDIT REPORT
     “MAINFRAME COMPUTER POLICIES AND PROCEDURES,
         DENVER ADMINISTRATIVE SERVICE CENTER,
           BUREAU OF RECLAMATION” (No. 97-I-683)

                                                        Status of Recommendations
            Recommendations                                and Corrective Actions

A. 1. Require all contractor employees to     Implemented. All contractor employees in the
have proper background clearances.            ADP Services Division are required to have
                                              background clearances. However, the current
                                              review found that contractor employees in other
                                              Service Center Divisions did not have
                                              appropriate clearances.

B.l. Enhance the intruder detection           Implemented. NetWare intruder lockout settings
settings to suspend a user account, after     have been modified on all production servers to
unsuccessful access attempts, for a period    suspend a user identification (ID) for a period of
of time long enough to ensure that the user   24 hours after three incorrect log-in attempts
will have to contact an administrator to      have been made within a 24-hour period.
have the user ID reset.

Cl. Develop and periodically update a         Implemented. Subsequent to the completion of
disaster recovery plan for the LAN.           current fieldwork, the LAN Disaster recovery
                                              Plan was completed.

D.l. Ensure that LAN security and             Implemented. The password change interval has
password features are implemented which       been revised to 90 days or less on all servers.
will require all users to change passwords    Unique passwords are required for all individual
every 90 days; enforce unique password        users. Concurrent multiple connection authority
use; and limit concurrent multiple or         has been removed from all accounts except for
unlimited connections to one per user and     those where a demonstrated need exists.
grant additional connections on an as-
needed basis.

D.2. Include the “SECURE CONSOLE”             Implemented. A procedure to secure the console
command in the AUTOEXEC.NCF file on           on all Service Center file servers was
all file servers to prevent users from        implemented. At the monitor console screen, the
gaining access to the system files in DOS     “LOCK FILE SERVER CONSOLE OPTION”
mode.                                         was implemented to lock the system console
                                              manually whenever the server is initialized.


                                              18
                                                                              APPENDIX 2
                                                                                Page 2 of 6




                                                      Status of Recommendations and
            Recommendations                                  Corrective Actions


D.3. Ensure that the command “SET              Partially implemented. All Service Center
ALLOW        UNENCRYPTED                        NetWare servers will be configured to require
PASSWORD=ON” is not present in the              encrypted passwords when all Service Center
AUTOEXEC.NCF file.                              NetWare file servers have been migrated to
                                                NetWare Directory Services. This is 75 percent
                                                implemented. The target date for full
                                                implementation originally was March 3 1, 1998,
                                                but the date has been changed to September 30,
                                                1998.

E.l. Coordinate with the client to limit        Implemented. As requested by the Service
Service Center users’ access to the “least     Center, the client has changed FFS security so
privileged” in the FFS application; that is,   that no employee has access to both vendor
assurance should be provided that any user     tables and disbursement documents.
authorized to enter or change the vendor
table does not also have access to
disbursing documents.

F. 1. Document procedures for the issuance     Implemented. Procedures for the issuance of
of key cards and require that the              card keys for vendors, contractors, and Federal
procedures be instituted for vendors in        employees have been documented.
addition to contractors and Federal
employees.

F.2. Evaluate the need for individuals Implemented. The evaluation has been
outside of the ADP Services Division to completed. Permanent card keys are issued to
be issued permanent card keys because only those individuals deemed appropriate.
such access should be limited to those
individuals performing their day-to-day
duties.




                                               19
                                                                                   APPENDIX 2
                                                                                     Page 3 of 6




                                                        Status of Recommendations and
             Recommendations                                   Corrective Actions


 F.3. Document procedures to ensure the Implemented. Procedures for monitoring visitor
 Service Center’s compliance with the access to the computer room have been
 Department of the Interior Automated documented in compliance with the
Information Systems Handbook regarding Departmental Handbook.
visitor (such as maintenance personnel,
janitorial staff, and vendors) monitoring.

G. 1. Evaluate the feasibility of setting the    Implemented. Evaluation of using one numeric
parameters in RACF security software to          or special character as part of the Service Center
require one numeric or special character as      standard password has been completed. Service
part of the password, as recommended by          Center management, in coordination with its
the Bureau’s Security Administrator.             clients, determined that requiring numeric or
                                                 special characters as part of the password was not
                                                 feasible.

G.2. Reevaluate the standard RACF                Partially implemented. The Service Center
password change intervals and revocation         issued a memorandum to the system owners in
settings to ensure that the level of risk        October 1997 outlining the alternatives identified
associated with the mainframe                    in the feasibility study referenced in
applications and the current password            Recommendation G. 1.            System owners
settings is acceptable to the Service            responded in December 1997, agreeing to reduce
Center, as well as to its clients and the        the expiration period for passwords from 180
Department, and address the results in a         days to 90 days, reduce the allowable period of
current risk assessment.                         inactivity of a user ID from 180 days to 90 days,
                                                 and remove inactive user IDS from the system
                                                 after 1 year of inactivity. With the exception of
                                                 one client, all inactive users are removed
                                                 manually once a month. Procedures for removing
                                                 Social Security inactive users are being
                                                 developed.

H. 1. Evaluate the feasibility of limiting the   Implemented. Evaluation has been completed.
number of Service Center users who have          This authority has been limited to three senior-
access authority to alter SMF logs.              level system programmers who work in the
                                                 System Software Management Branch.



                                                 20
                                                                               APPENDIX 2
                                                                                 Page 4 of 6




                                                     Status of Recommendations and
            Recommendations                                 Corrective Actions


H.2. Ensure that the SMF record type 60       Implemented. Batch and TSO type 60 records
logging is active or RACF settings are        are written to the SMF log. Type 60 record
adjusted to specifically audit critical       collection has been activated for “started tasks”
datasets maintained on the mainframe          as well.
computers and to therefore provide an
audit trail of system activity.

I. 1. Evaluate the extent to which the        Implemented. Evaluation has been completed.
“OPERATIONS” attribute should be              Assignment of the OPERATIONS attribute has
available to Service Center user IDS.         been restricted to employees who need the
Specifically, the use of other more           attribute to perform their duties.
restrictive RACF authorities (such as
DASDVOL authority) should be
considered where possible.

1.2. Activate the security feature RACF       Implemented. The feature OPERAUDIT has
OPERAUDIT and ensure that security            been activated, and the resultant logs will be
personnel perform periodic reviews of the     reviewed on a quarterly basis by the Service
resultant logs to identify unauthorized       Center Computer Security Manager.
activity.

J. 1. Ensure that the group responsible for   Partially implemented. The identification of
monitoring security performs periodic         critical datasets has been completed, and a
reviews of user access levels to identify     requirement to perform periodic reviews of
required necessary changes and to ensure      reports auditing the critical datasets has been
that user access levels are authorized.       established. Performance of these actions would
                                              enable monitoring personnel to identify user
                                              access levels; however, the actions would not
                                              ensure that the user access level was authorized.
                                              Therefore, procedures need to be established to
                                              compare the critical dataset reports with
                                              approved user authorization requests.




                                              21
                                                                                 APPENDIX 2
                                                                                   Page 5 of 6




                                                       Status of Recommendations and
            Recommendations                                   Corrective Actions


5.2. Institute a policy of “least privileged”    Implemented. A policy of “least privileged”
access levels to ensure that access to           access is in place.
resources and data is limited to those users
who require such access.

K. 1. Evaluate the staffing requirements of     Implemented. The ADP Services Division has
the group responsible for monitoring            completed the evaluation and has identified
security to ensure the separation of duties     adequate staffing within the Division for
within RACF.                                    accomplishing the separation of the security
                                                administration and auditing functions. The
                                                security administration function will be
                                                maintained with the same staffing levels. The
                                                security auditing function will be placed within
                                                a quality management function in the Division’s
                                                IRM and Customer Service Branch.

L. 1. Document and implement procedures         Implemented. While the Bureau disagreed with
to ensure that Decentralized Security           the recornrnendation, it has taken action to
Administration Facility records are             modify existing policy and procedures to reflect
updated for oral access adjustments to          a new process.
allow for the reconciliation of access
requested with access allowed.

M. 1. Provide resources to ensure the Implemented. A computer security plan for 1997
development of a computer security plan was developed and submitted to the Department
for the sensitive systems in accordance of the Interior’s Office of Information Resources
with the Computer Security Act and Management.
Circular A- 130, Appendix III.

N. 1. Perform a risk analysis of the Service Implemented. A risk analysis of the computer
Center’s computer center and its center has been completed.
applications.




                                                22
                                         APPENDIX 2
                                           Page 6 of 6




                  Status of Recommendations and
Recommendations          Corrective Actions
                            United States Department of the Interior



                                                                                     JUN 17 I998
I\ Kf !‘I 1 Rk L-t R f0


 D-5010
 ADM-8.00

                                                    Memorandum
                                                                                                                  ,.,rs   ,
                                                                                      \\t-FICI: ;";. '- : - p '
  To:                     Office of Inspector General
                           Attention: Robert J. Williams, Acting Inspector General
                                                                                                                          I
 From:
                          Commissioner

  Subject:
                          Administrative Service Center, Bureau of Reclamation
                          (Assignment No. A-IN-BOR-00 l-97)

 As required by Departmental Manual 360 DM 5.3, attached is the Bureau of Reclamation’s
 written response to the subject audit report of our mainframe computer operations at the Denver
 Administrative Service Center (ASC). The schedule proposed for implementation of some of the
 recommendations recognizes the ASC’s existing commitment to the complete implementation of
 the Federal Personnel Payroll System (FPPS) by the end of calendar year 1998.

 While we generally support the audit recommendations, some of the discussion in the report is
 misleading and should be clarified. The report language regarding the FPPS system did not
 adequately consider that FPPS was under development during the time of the audit. According to
 the drafl report, the period of audit coverage was fiscal year 1997. The FPPS was still in a
 development mode at that time, and there is a considerable difference between a software project
 in the development mode versus the maintenance mode. Some of the report language (e.g., page
 10 of the draft report) could lead a reader to believe that FPPS is presently an unstable system.
 This is not true and should be clarified before the report is issued in final form.

 We appreciate the opportunity to comment on the audit recommendations and anticipate working
 with your office towards a constructive resolution. If you have any questions or concerns, please
 contact Stan DUM, Administrative Service Center Director, at (303) 969-7200.




 Attachment

  cc. Assistant Secretary - Water and Science, Attention: Carla Burzyk
         (w/ attachment)

                                                           24
                                                                                             APPE,"JllIX 3
                                                                                             Page        2 of 15




                 OIG Draft Report “Followup of Mainframe Computer Policies
                       and Procedures, Administrative Service Center”


COMPUTER CENTER MANAGEMENT AND OPERATIONS

A. Background Clearance-s

Condition: In our prior report, we recommended that Service Center management require all
            contractor employees to have proper background clearances. However, during our
            current audit, we found that contractor personnel at the ADP Services Division had
            received background clearances but that not all contractor personnel at the FPPS
            and Financial Systems Divisions had received background clearances. Additionally,
            Service Center Federal personnel involved in designing, developing, operating, or
            maintaining sensitive automated systems did not have background checks and
            security clearances commensurate with their job responsibilities and the sensitivity of
            the information accessed. Speci&ally, 154 of the 189 Service Center employees
            who performed these ADP-related duties did not have the appropriate ADP
            background clearances.

Criteria:   Office of Management and Budget Circular A-130, Appendix III, “Security of
            Federal Automated Information Resources,” requires agencies to establish and
            manage security policies, standards, and procedures that include requirements for
            screening individuals participating in the design, development, operation, or
            maintenance of sensitive applications or those having access to sensitive data. In
            addition’ the Departmental Manual (441 DM 4.6) requires position sensitivity levels
            of “non-critical sensitive” or “critical sensitive” and associated security clearances for
            ADP-related positions for which employees are required to design, test, operate, and
            maintain sensitive computer systems. Security clearances are also required of
            employees who have access to or process sensitive data requiring protection under
            the Privacy Act of 1974. Further, the Departmental Manual (441 DM 5.15) requires
            that all consultants or contractors performing ADP-related sensitive and critical
            duties have background investigations to determine position suitability and to receive
            a security clearance.
                                                     .   .
Cause:      Service Center management had not uniformly developed and implemented, across
            all Service Center Divisions, personnel security policies requiring contractor
            personnel who perform ADP-related sensitive and critical duties to be screened for
            position suitability. Additionally, Service Center management did not ensure that the
            level of position sensitivity for ADP-related positions was assigned at the level
            commensurate with the risk and sensitivity of the data accessed and processed and
            that background checks were performed on employees who filled these positions.



                                                 1
                                            25
                                                                                             APPEXDIX 3
                                                                                             Page 3 of 15


Effect:      Without proper personnel background investigations, managers had limited
             knowledge of the suitability of their employees and contractors, from a security
             standpoint, for their respective jobs. Without this assurance, there was an increased
             risk that the Service Center’s sensitive systems could be impaired or compromised
             by personnel.

Recommendations

We recommend that the Director, Administrative Service Center:

     1. Develop and implement policies and procedures which require contractor employees who
fill ADP-related sensitive or critical positions to have documented suitability screening and proper
background investigations and appropriate security clearances.

    Response

   Concur. The Denver Administrative Service Center (ASC) will develop and distribute policy
   to all affected ASC offices regarding security clearances and background investigations for
   contractor personnel. The policy will be distributed by October 1, 1998. In addition, the
   ASC will review and amend as necessary all personnel contracts to include the requirement for
   background investigations and security clearances for existing and future contract personnel
   by January 1, 1999. The responsible official is the Chief, Applications Management Office.

   There are two types of contractual service arrangements at the ASC. Some employees work
   under a third-party contract with other agencies, usually the General Services Administration
   (GSA). In these cases, the servicing agency contract controls all contractual requirements
   and clauses. The requesting agency (ASC) may outline additional security requirements in the
   task order statement of work as long as the additional requirements are within the parameters
   of the original contract. All GSA contractors in both the ADP Services and Financial Systems
   Division were subject to background security investigations through GSA’s requirements and
   procedures. These investigations were completed as-of May 1997. As of March 1998, the
   Federal Personnel Payroll System (FPPS) Program Management Division contractor
   employees changed from a Department of the Army contract to a GSA contract. As a result
   of the preliminary audit findings, ASC security requirements were added to the task order
   under the GSA contract.


   Another type of contractual arrangement is a direct contract between the ASC and the service
   contractor. All current direct contracts either already have the proper security clauses or will
   have the proper clauses by January 1, 1999, to comply with security requirements. All
   existing and future contractual service agreements will be reviewed to ensure compliance with
   the requirements for background security checks.

    2. Evaluate the position sensitivity of ADP-related positions, assign position sensitivity levels
in accordance with the Departmental Manual, and ensure that those employees working on
sensitive systems have the proper background investigations and security clearances before they
are assigned to the positions.
                                                                                        APPEYDIX 3
                                                                                        Page 4 of 15


Response

Concur. The ASC will review ADP-related positions in the ASC organizations to veri@ the
appropriate requirements for background investigations and security clearances, as required by
the Departmental Manual to ensure employees working on sensitive systems have the proper
background and security clearances. A complete evaluation of position sensitivities ASC-
wide and the assignment of sensitivity levels will be completed by April 1, 1999. However,
the ASC has no control over when the background investigations on these employees will be
completed. These investigations are performed by an outside contractor. We believe that the
contractor can complete most of these investigations by October 1, 1999. The responsible
official is the Chief, Applications Management Office.

Position sensitivity evaluations for the ADP Services Division have been completed and the
results of several background investigations received. The AX began position sensitivity
evaluations in the FPPS Division in June of 1998 with background investigations to follow.
Position sensitivity evaluations for the Financial Systems Division (FSD) and PAYLPERS
Division will commence after management decisions are made regarding potential
reorganizations impacting the positions in these divisions.

While the ASC can control the position sensitivity evaluation process, it cannot control the
timeframes in which the background investigations and security clearances are completed.
The audit recommendation states that the background investigations and security clearances
should be completed before the individuals are assigned to the positions. Our understanding is
that this criteria only applies to positions classified as “Sensitive” (of which ASC has had very
few thus far). Therefore, our concurrence is based on the understanding that employees
currently occupying positions classified as “Non-Sensitive” may continue in those positions
until such time as completed background investigations either confirm or rebut the
appropriateness of their placement in these jobs.
                                                                                                 APPETIDIX 3
                                                                                                 Page 5 of 15




          PTJTER C1FtNTER MANAtXMENT AJW3 C)PF’Tl~NS

B. Operating Efficiencies

Condition: At the Service Center, each division controlled the process of moving changed
               software from the test to the production environment, different software tools were
               used to control the movement of the changed software, and internal and external
               clients controlled their mainframe computer production scheduling.

Criteria:      Office of Management and Budget Circular A- 130 states that management should
               oversee its processes to maximize return on investment and minimize financial and
               operational risk. Further, the Circular requires that financial management systems
               conform to the requirements of Office of Management and Budget Circular A-127,
               “Financial Management Systems. ” Circular A- 127 requires that agency financial
               management systems process financial events effectively and efficiently.

Cause:         Service Center management did not ensure that its processes were operating
               efficiently because of preferences of internal and external clients and because
               management had not developed and implemented consistent standards for
               controlling operational processes.

Effect:        There was an increased risk that changed software would negatively impact the
               mainframe computer operating system; costs of maintaining different software tools
               would increase Service Center operating costs, which would be passed onto clients;
               and mainframe computer usage could be reduced. Additionally, without centralized
               control of production scheduling, there was an increased risk that critical processing
               jobs would not receive the required priority.

Recommendation:

We recommend that the Director, Administrative Service Center, in coordination with the Service
Center’s internal and external clients, evaluate the feasibility of centralizing the process of moving
changed software from the test environment to the production environment, using standardized
software tools to control the software change process, and centralizing mainf?ame computer
production scheduling.

          Response

          Concur. The ASC will in coordination with internal and external clients perform an
          evaluation of the feasibility of centralized software change management. The feasibility
          analysis will include evaluating the viability of a standard software change management
          tool and make recommendations to management by October 1, 1999. In addition to
          evaluating centralized software change management, the ASC will also evaluate the
          feasibility of centralized computer production scheduling. Should the feasibility evaluation
          indicate that centralized change management and production scheduling is cost beneficial,
                                                                                   ""'ZxlIX 3
                                                                                   ‘A
                                                                                                 I
                                                                                   Pqe 6 of 15



additional implementation time beyond the October 1, 1999, date will be necessary. The
responsible official is the Chief Applications Management Office.

There are several issues which this feasibility evaluation will need to consider. Due to the
variety of customers ASC serves, centralized software change management will require
technical expertise in a variety of different customer practices and utilities. Software
change management is no longer simply a Common Business Oriented Language
(COBOL) exercise. Without even considering the software change management tools
our customers are using, there are multiple change management software tools even within
the ASC. ChangeMan is the selected ASC change management software product that
controls day-to-day changes on the IBM computer. This product is in various phases of
implementation throughout the ASC. However, ChangeMan will not work within the
COM-PLETEINatural environment which FPPS uses. The PAC change management
software tool was selected for this environment, due to the uniqueness of the Natural
language. Since the intent of this recommendation appears to address the overall
efficiency of mainf?arne computer operations, the intent of the feasibility evaluation will
address this same concern as well.




                                   29    5
                                                                                                      APPTJDIX 3
                                                                                                      Page 7 of 15




SOFTWARE CHANGE MANAGEMENT

C. Application Software Change Management Controls

Condition: Software changes made to the FPPS during the latter stages of development and the
              early stages of implementation were not approved, reviewed, or evaluated
              adequately before changed software was installed for use in production;
              documentation was not adequate to monitor changes made to the software; and
              available library control software’ was not implemented to ensure consistency and
              completeness throughout the FPPS application.

Criteria:     Federal Information Processing Standards Publication 106, “Guideline on Software
              Maintenance,” provides guidelines for managing software maintenance. Publication
              106 states that all software changes should be carefully evaluated and formally
              reviewed prior to installing the changed software. The publication further states, “In
              order to monitor maintenance effectively, all activities must be documented. . . . The
              key to successful documentation is that not only must the necessary information be
              recorded, it must be easily and quickly retrievable by the maintainer.” In addition,
              FPPS Division policies and procedures require that all changes to the FPPS
              application be thoroughly documented, be accepted by all involved parties, and pass
              a quality assurance review.

Cause:       FPPS Division management did not ensure that Division personnel followed
             software change management practices for making soflware changes to the FPPS
             application because of the time constraints to implement FPPS and because FPPS
             was encountering problems and was considered by Division personnel to be
             unstable. In addition, we found that FPPS Division management did not hold its
             personnel accountable for complying with Division policies and procedures when
             they made changes to the FPPS application. Further, FPPS Division management
             said that they did not implement the available library control software, which would
             ensure adequate documentation of the FPPS application, because at that time, the
             vendor library control software was not working correctly.

Effect:      There was an increased risk that the changes made to the FPPS application would
             not perform according to specifications, which could adversely affect user
             satisfaction and could adversely impact other applications interfacing with the FPPS
             application or the mainframe operating system.

Recommendations:

We recommend that the Director, Administrative Service Center:



   ‘Library control so&we is a system for keeping track of changes to and versions of software programs,
   documenting components to build executable programs, and preventing unauthorized access to program f&s.

                                                3;3
                                                      6
    1. Require that software changes be adequately reviewed and approved before the changes
are implemented.

       Response

       Complied. Currently, FPPS Standard Operating Procedures (SOP) require that any
       software changes complete the following steps:
            Be approved by FPPS management before programming begins.
            Be migrated to a dedicated test environment upon completion with an explanation of
            the change(s) made.
            Be independently tested and approved for production by FPPS Functional Analysts
            and have the test results and documentation reviewed and approved by an FPPS
            Functional Lead.
            Be independently migrated to production by the FPPS Database Administrative staff
            along with any database changes required.

       This !3OP is enforced by FPPS Management.

   2. Implement procedures to ensure that all software changes to the FPPS application are
properly documented.

       Response

       Complied. The FPPS SOP requires that any software changes be fully documented on
       the change request form or problem report form. It also requires that any change (s) made
       be fully documented on the migration request forms and that a responsible person’s
       signature be provided at each step along the way. Upon migration to production, all
       paperwork is filed for easy retrieval.

       This SOP is enforced by FPPS Management.

   3. Implement the available library control software when corrected to ensure adequate
documentation of the FPPS application.

       Response

       Concur. The available library control software is in the process of being implemented for
       testing. Once it is to the stage that it will meet all our migration needs and is fully tested,

       it will be implemented. The target date to debug, test, and render a “go or no-go”
       decision on implementation of available library control software is July 1, 1999. The
       responsible official is the Chief, Applications Management Office.
       The FPPS SOP does provide adequate documentation and an organized systematic
       migration approach which also provides separation of duties. This SOP can also be used
       for emergency change reports which are a fact of life for any new system. One of the


                                                  7
                                             31
                                                                                    APPE"3DIX ',
                                                                                    Page 9 of 15



reasons the library control software is not used is that it does not provide emergency
change flexibility as our current SOP does. As FPPS completes the transition f?om a
development mode to a maintenance mode, the computer operating environment will
almost certainly change substantially. It will take time to determine how interrelated
conditions will develop so as to determine specifically what corrections are needed to
make the library control software operational.
                                                                                              "'PETTDIX 3
                                                                                             .--
                                                                                             Tage 10 of 15




SOFTWARE CHANGE MANAGEMENT


D. Operating System Software Change Management

Condition: Change controls over the mainframe computer operating system software were not
            adequate. The ADP Services Division change control procedures did not address
            adequate separation of duties between the development, test, and installation
            functions. Thus, one individual could perform all of these critical functions. In
            addition, the change control procedures did not ensure that all changes were
            properly approved by Division management. While the change management
            procedures required approval of all software changes, changes were made without
            documented evidence of approval.

Criteria:   Appendix III of Office of Management and Budget Circular A- 130 states that one of
            the minimum controls required in a general support system is personnel controls.
            One such control is separation of duties, which is “the practice of dividing the steps
            in a critical function among different individuals.” Also, Federal Information
            Processing Standards Publication 106 states that “to be effective, the policy should
            be consistently applied and must be supported and promulgated by upper
            management to the extent that it establishes an organizational commitment to
            software maintenance. ” In addition, Publication 106 states that “prior to installation,
            each change (correction, update, or enhancement) to a system should be formally
            reviewed.” Finally, Division system change request procedures require that all
            change requests be approved by the appropriate branch chief

Cause:      ADP Services Division management did not ensure that appropriate separation of
            duties existed in developing and testing mainframe operating system software and
            parameter changes and in moving operating system software and parameter changes
            into the production environment, although the number of employees within the
            Division may allow for a separation of these duties. Additionally, Division
            management had not implemented controls to ensure that the process of making
            system software changes was in compliance with its documented procedures.
            Further, management had not implemented procedures to require periodic reviews of
            critical datasets and system parameters to identify inappropriate changes to the
            mainframe operating system environment. Although Division management had
            implemented a change control software tool that provided a systematic and
            automated means of controlling the movement of software changes, all the
            capabilities of the software tool were not implemented because of other Division
            priorities.




                                                  9
                                             33
                                                                                         APPEBDIX 3
                                                                                         Page 11 of 15



Effect:        There was an increased risk that unauthorized, untested, and undocumented changes
               could be made to the mainframe computer operating system software and
               parameters, which would affect system processing and data integrity, and that these
               changes would not be detected or detected in a timely manner.

Recommendations:

We recommend that the Director, Administrative Service Center:

    1. Evaluate current ADP Services Division procedures and determine the feasibility of
implementing controls in the change management process over operating system software to
ensure that adequate separation of duties is addressed and complied with.

    2. Develop procedures and implement controls to ensure that changes to the operating
system parameters are identified, approved by ADP Services Division management, and
documented.

    3. Develop procedures requiring periodic reviews of critical datasets and system parameters.

    4. Evaluate implementing available capabilities in the current change control software tool to
more effectively control changes to the operating system software.
                                                    . L .
          Response

          Concur. The ASC will implement the recommended actions by July 1, 1999.      The
          responsible official is the Chiefl ADP Services Division.




                                                 10
                                           34
                                                                                                           APPENDIX 3      I
                                                                                                           Page 12 of 15




MAINFRAME COMPUTER OPERATING SYSTEM SOFTWARE

E. System Audit Tools

Condition: Service Center management did not use available mainframe computer operating
              system audit tools that would improve integrity over system processing and data and
              that would detect inappropriate actions by authorized users. Specifically:

                  - Operating system integrity verification and audit software was not used. Such
              software could assist data center and installation security management in identifying
              and controlling the mtiame computer operating system’s security exposures that
              may result from system setting options; from installing “back doors” to the operating
              system; and from introducing viruses and Trojan horses, which can destroy
              production dependability and circumvent existing security measures.

                  - Computer operators and system programmers had the capability to change the
              system initialization process and thus affect system processing. System options that
              would log the results in the SYSLOG’ of actions taken by the computer operators
              and system programmers affecting mainframe operating system configuration were
              not implemented. Therefore, an audit trail of the system initialization process and
              changes to the operating system configuration could not be produced for periodic
              review. Based on recommendations made by our audit staff during the review,
              Service Center management implemented the logging capabilities within the system;
              however, procedures had not been developed and implemented to require periodic
              reviews of the logs.

                  - Periodic reviews of critical System Management Facility (SMF)3 logs to
              identify unauthorized changes to data by authorized users and critical events
              affecting system processing were not performed. For example, reviews were not
              performed of record type 7, which records when the system audit trail is lost, and
              record type 90, which records events such as SET TIME, SET DATE, and SET
              SMF, all of which affect system processing and audit trails.

Criteria:     Appendix III of Office of Management and Budget Circular A-130 requires agencies
              to establish controls to ensure adequate security for all information processed,
              transmitted, or stored in Federal automated information systems. In addition, the
              Circular states that individual accountability is one of the personnel controls required
              in a general support system. The Circular further states that an example of one of
              the controls to ensure individual accountability includes reviewing or looking at

   *SYSLOG is an audit trail that logs the results of actions taken by computer operators and system programmers
   during system initialization.                           .

   3The System Management Facility (SMF) logs record all system activity and serve as an audit trail of system
   activity, including identi@ing users who performed the activity.

                                                        11
                                                   35
                                                                                              APPEXDIX 5      I
                                                                                              Page 13 of 15


               patterns of users’ behavior, which requires periodic reviews of the audit trails. Also,
               the National Institute of Standards and Technology’s “An Introduction to Computer
               Security: The NIST Handbook” states that audit trails are “technical mechanisms” to
               achieve individual accountability.

Cause:         Service Center management did not acquire operating system integrity and
               verification software, did not encourage the use of available system audit trails to
               detect and identify inappropriate actions affecting the system processing and data
               integrity, and did not establish procedures requiring periodic reviews of available
               system logs. Instead, Service Center management relied on its stafFto make
               appropriate changes to the system initialization process and on authorized users to
                                                                                          8
               make only appropriate changes.

Effect:        As a result, there was an increased risk that mainframe computer operating system
               security exposures would not be identified. Additionally, without periodic reviews
               of the system audit trails, there was an increased risk that processing problems or
               unauthorized activities would not be detected or detected timely and that the
               responsible individuals would not be held accountable for the inappropriate actions.

Recommendations:

We recommend that the Director, Administrative Service Center:

    1. Evaluate acquiring system verification and auditing software.

          Response

          Concur. The ASC will develop functional requirements and identify additional resources
          necessary to manage and conduct evaluation of existing verification and auditing products
          to determine cost and capability. Should a software product be found which complies
          with our requirements, it will be implemented by January 1, 1999. The responsible official
          is the Chief, ADP Services Division.

   2. Develop and implement procedures to ensure that periodic reviews are performed of the
SYSLOG and critical SMF logs to identify unauthorized or inappropriate activities and that
unauthorized or inappropriate activities are reported to Service Center management.

          Response

          Concur. The ASC will develop and implement procedures for reviewing SYSLOG and
          critical SMF logs by July 1, 1999. The responsible official is the Chief, ADP Services
          Division.




                                             ‘=:’   12
                                                                                                                     APPENDIX 3
                                                                                                                     Page 14 of 15




MAINFRAME COMPUTER OPERATING SYSTEM SOFTWARE


F. Mainframe Operating System Options
Condition: ADP Services Division management did not implement mainframe operating system
           options that would strengthen controls over computer programs which access
           sensitive operating system functions. We found 13 libraries4 that were able to run in
           the “Authorized Program Facility (APF)-authorized” state, even though the libraries
           were not required to run in the APF. By running in the APF-authorized state, these
           libraries may be considered part of the mainframe operating system and thus have
           access to all of the mainframe resources.

Criteria:      IBM’s publication titled “OS/390 Initialization and Tuning Reference” states that
               “the parameter LNKAUTH specifies whether all libraries” in the LNKLST**
               membei “are to be treated as Authorized Program Facility (APF)-authorized when
               accessed as part of the concatenation, or whether only those libraries that are named
               in the APF table are to be treated as APF-authorized.“6 Additionally, the publication
               addresses managing system security and states that the “authorized program facility
               (APF) allows your installation to identify system or user programs that can use
               sensitive system functions. ”

Cause:         Division Management implemented a default option (LNKLST) that allowed
               libraries within the LNKLST** member to run in the APF-authorized state. An
               alternative option (APFTAB) is provided which requires only those libraries that are
               named specifically in the APF table to be able to run in the APF-authorized state.
               The 13 libraries were automatically added to the LNKLST** member when the
               operating system was upgraded in July 1997. Because Division management did not
               review the members used to define APF-authorized libraries, these 13 libraries
               remained in the LNKLST** member. Further, because Division management
               implemented the LNKLST option, these 13 libraries were unnecessarily provided the
               ability to run in the APF-authorized state. Therefore, management did not have
               assurance that only approved libraries had access to sensitive operating system
               functions. Based on recommendations of our audit staff’ during the review, the


   4A library is a collection of programs or data files or a collection of functions (subroutines) that are linked into the
   main program when it is compiled. (The Computer Language Company, hrc., ComDuter DesktoD~ncvcloDedi~
   Version 9.4,4th Quarter, 1996.)

   5Con~on me8Ils to link together in a series or chain. (We ~Merriam-
                                                              ‘s ’
   Webster Inc., Springfield, Massachusetts, 1989, p. 27 1.)


   %NKLST’j member “defines the collection of program libraries to be searched, in sequence, for programs when
   no specific [library] has been supplied in the job stream.” (Mark S. Hahn CONSUL Risk Management, Inc., A
   Guide to SYSl .PARMLIB. MonoeraDh Series 4, The Information Systems Audit and Control Foundation, Inc.,
   Rolling Meadows, Illinois, February 1996, p. 38.)
                                                                                             APPE3DIX 3
                                                                                             Page 15 of 15



               libraries were removed from the LNKLST** member. However, if the APFTAB
               option had been used, Division personnel would have been required to enter the 13
               library names into the APF table, thus providing additional assurance that only
               approved libraries would run in the APF-authorized state.

Effect:        By implementing the LNKLST option rather than the APFTAB option, the risk
               increased for unauthorized libraries to run in an authorized state, thus bypassing
               operating system controls, and for system integrity to be lost.

Recommendations:

We recommend that the Director, Administrative Service Center:

    1. Evaluate the feasibility of using the APFTAB option, thus providing additional assurance
that only approved libraries would run in the APF-authorized state.

          Response

          Concur. The ASC will review the existing control methodology and determine ifusing
          the APFTAB option would provide enough additional safeguards to justify its
          implementation. The review will be completed and recommendations provided to
          management by July 1, 1998. The responsible official is the Chief, ADP Services Division.

   2. Perform periodic reviews of all members used to define the APF-authorized libraries to
ensure that only those required to run in the APF-authorized state are given this authority.

          Response

          Concur. The ASC will by October 1, 1998, develop procedures requiring periodic
          reviews of members used to define the APF-authorized libraries. The responsible official
          is the Chief, ADP Services Division.
                                                                          APPENDlX 4



   STATUS OF CURRENT AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
        Reference                    Status                    Action Required


      C.l and C.2          Implemented.                 No further action is required.

A.l, A.2, B.1, C.3, D.l,   Resolved; not implemented.   No further response to the
D.2, D.3, D.4, E.l, E.2,                                Office of Inspector General is
F.l, and F.2                                            required. The recommendations
                                                        will be referred to the Assistant
                                                        Secretary f o r P o l i c y ,
                                                        Management and Budget for
                                                        tracking of implementation.




                                          39
                                                                           APPENDIX 5



     STATUS OF PRIOR AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
       Reference                       Status                    Action Required

A.l, B.l, Cl, D.l, D.2,      Implemented.                 No further action is required.
E.l, F.l, F.2, F.3, G.l,
H.l, H.2,1.1,1.2,5.2, K.1,
L.l, M.l, N.l, N.2, and
0.1

D.3, G.2, and J.l            Resolved; not implemented.   No further response to the
                                                          Office of Inspector General is
                                                          required. The information
                                                          regarding the status of these
                                                          recommendations will be
                                                          provided to the Assistant
                                                          Secretary for Policy,
                                                          Management and Budget for
                                                          tracking of implementation.




                                            40
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:

Sending written documents to:                                  Calling:


                     Within the Continental United States

U.S. Department of the Interior                       Our 24-hour
Office of Inspector General                           Telephone HOTLINE
1849 C Street, N.W.                                   l-800-424-508 1 or
Mail Stop 5341                                        (202) 2085300
Washington, D. C . 20240


                                                      TDD for hearing impaired
                                                      (202) 208-2420 or
                                                      l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Retion

U. S . Department of the Interior                     (703) 235-922 1
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22201

                                    North Pacific Retion

U.S. Department of the Interior                       (67 1) 647-605 1
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free Numbers:
 l-800-424-508 1
 T’DD l-800-354-0996

FIXCommercial Numbers:
 (202) 208-5300
 TDD (202) 208-2420      w



1849 C Street’ N.W.
Mail Stop 5341
Washington, D.C. 20240
